   DEPARTMENT OF HOMELAND SECURITY

   Ofﬁce of Inspector General


Evaluation of DHS’ Information Security Program
               for Fiscal Year 2004




          Ofﬁce of Information Technology


OIG-04-41                September 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                              Contents
Introduction        .......................................................................................................................................2

   Background .................................................................................................................................... 3

   Results in Brief .............................................................................................................................. 4

   Results of Independent Evaluation… ............................................................................................ 8

Appendices

   Appendix A:                Purpose, Scope, and Methodology.................................................................. 19
   Appendix B:                Management’s Comments............................................................................... 21
   Appendix C:                Digital Dashboard ........................................................................................... 22
   Appendix D:                System Inventory and IT Security Performance ............................................. 23
   Appendix E:                Identiﬁcation of Signiﬁcant Deﬁciencies ........................................................ 25
   Appendix F:                OIG Assessment of the POA&M Process....................................................... 26
   Appendix G:                OIG Assessment of the Certiﬁcation and Accreditation Process .................... 27
   Appendix H:                Agencywide Security Conﬁguration Requirements........................................ 28
   Appendix I:                Incident Detection and Handling Procedures ................................................. 29
   Appendix J:                Major Contributors to This Report ................................................................. 30
   Appendix K:                Report Distribution ......................................................................................... 31

Abbreviations

   ATO                        Authority to Operate
   C&A                        Certiﬁcation and Accreditation
   CBP                        United States Customs and Border Protection
   CIO                        Chief Information Ofﬁcer
   CIP                        Critical Infrastructure Protection
   CIS                        United States Citizenship and Immigration Services
   CISO                       Chief Information Security Ofﬁcer
   COMSEC                     Communications Security
   COOP                       Continuity of Operations Plan
   CSIRC                      Computer Security Incident Response Center
   DHS                        Department of Homeland Security
   DISA                       Defense Information Systems Agency
   E-authentication           Electronic Authentication
   EP&R                       Emergency Preparedness and Response Directorate
   FIPS                       Federal Information Processing Standard
   FISMA                      Federal Information Security Management Act


                      Evaluation of DHS’ Information Security Program for Fiscal Year 2004                                                              Page 1
Contents

   FY        Fiscal Year
   IAIP      Information Analysis and Infrastructure Protection Directorate
   IATO      Interim Authority to Operate
   ICE       United States Immigration and Customs Enforcement
   IRP       Information Requirements Plan
   IS        Information System
   ISSB      Information Systems Security Board
   ISSM      Information Systems Security Manager
   ISSO      Information Systems Security Ofﬁcer
   IT        Information Technology
   MD        Management Directive
   NIST      National Institute of Standards and Technology
   NSA       National Security Agency
   NSS       National Security Systems
   OCIO      Ofﬁce of the Chief Information Ofﬁcer
   OE        Organizational Element
   OIG       Ofﬁce of Inspector General
   OMB       Ofﬁce of Management and Budget
   PAR       Performance & Accountability Report
   POA&M     Plan of Action and Milestones
   Pub       Publication
   S&T       Science and Technology Directorate
   SP        Special Publication
   TSA       Transportation Security Administration
   US-CERT   United States Computer Emergency Readiness Team
   USCG      United States Coast Guard
   USSS      United States Secret Service




Page 2                Evaluation of DHS’ Information Security Program for Fiscal Year 2004
OIG
Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                                  Due to the increasing threat to information systems and the highly networked
                                  nature of the federal computing environment, the Congress, in conjunction
                                  with the Ofﬁce of Management and Budget (OMB), requires an annual review
                                  and reporting of agencies’ compliance with the requirements under the Federal
                                  Information Security Management Act (FISMA) of 2002.1 FISMA focuses on
                                  the program management, implementation, and evaluation of the security of
                                  unclassiﬁed, classiﬁed, and national security systems (NSS).2

                                  To comply with OMB’s FISMA reporting requirements, we conducted an
                                  independent evaluation of the Department of Homeland Security’s (DHS)
                                  information security program and practices. As part of our review, we evaluated
                                  DHS’ established processes and the progress DHS has made in implementing
                                  its agencywide information security program. In doing so, we speciﬁcally
                                  assessed DHS’ Plan of Action and Milestones (POA&M) and certiﬁcation
                                  and accreditation (C&A) processes. We also focused on whether DHS’ major
                                  organizational components are aligning their information security program and
                                  practices with DHS’ agencywide information security program. Additionally,
                                  we tested the effectiveness of information technology (IT) security controls for
                                  a subset of DHS’ information systems. We did not gather statistical data for
                                  incident reporting and analysis or training as part of our evaluation.

                                  We performed our work at both the program and the organizational component
                                  levels. The following major organizational components were included in our


    1
     FISMA is included under Title III of the E-Government Act (Public Law 107-347).
    2
     The term “national security system” means any information system, including any telecommunications system, used or operated by an
    agency or by a contractor of an agency or other organization on behalf of an agency:
        (i)        the function, operation, or use of which involves intelligence activities; involves cryptographic activities related to national
                   security; involves command and control of military forces; involves equipment that is an integral part of a weapon or
                   weapons system; or is critical to the direct fulﬁllment of military intelligence missions (excluding a system that is to be used
                   for routine administrative and business applications, i.e., payroll, ﬁnance, logistics, and personnel management applications),
                   or
        (ii)       is protected at all times by procedures established for information that have been speciﬁcally authorized under criteria
                   established by an Executive Order or an Act of Congress to be kept classiﬁed in the interest of national defense or foreign
                   policy.


                          Evaluation of DHS’ Information Security Program for Fiscal Year 2004                                            Page 3
                             review: United States Customs and Border Protection (CBP), Emergency
                             Preparedness and Response Directorate (EP&R); Information Analysis and
                             Infrastructure Protection Directorate (IAIP); United States Immigration and
                             Customs Enforcement (ICE), Science and Technology Directorate (S&T);
                             Transportation Security Administration (TSA), United States Citizenship and
                             Immigration Services (CIS), United States Coast Guard (USCG); and United
                             States Secret Service (USSS). We also included the Ofﬁce of Inspector General
                             (OIG) in our evaluation. See Appendix A for a detailed discussion of our purpose,
                             scope, and methodology.


Background
                             The E-Government Act of 2002 (Public Law 107-347), signed into law by the
                             President on December 17, 2002, recognized the importance of information
                             security3 to the economic and national security interests of the United States.
                             Title III of the E-Government Act, entitled FISMA, provides a comprehensive
                             framework for ensuring the effectiveness of security controls over information
                             resources that support federal operations and assets.

                             FISMA requires each federal agency to develop, document, and implement an
                             agencywide security program. The agency’s security program should provide
                             security for the information and the information systems that support the
                             operations and assets of the agency, including those provided or managed by
                             another agency, contractor, or other source. As speciﬁed in FISMA, agency heads
                             are charged with conducting an annual evaluation of information programs and
                             systems under their purview, as well as assessments of related security policies
                             and procedures. OIGs are to independently evaluate the effectiveness of an
                             agency’s information security program and practices on an annual basis.

                             OMB issued memorandum M-04-25, FY 2004 Reporting Instructions for the
                             Federal Information Security Management Act, on August 23, 2004. The
                             memorandum provides updated instructions for agency and OIG reporting under
                             FISMA. This annual evaluation summarizes the results of our review of DHS’ IT
                             security program and practices according to OMB’s instructions.




3
 Information security means protecting information and information systems from unauthorized access, use, disclosure, disruption,
modiﬁcation, or destruction.



Page 4                                   Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                           In addition to our independent evaluation, we conducted reviews of DHS’
                           information systems and security program related areas throughout
                           Fiscal Year (FY) 2004. This report summarizes the results of a limited number of
                           systems evaluated during our on-going ﬁnancial statement and classiﬁed systems
                           reviews. It also includes results from an on-going audit of remote access, and
                           reports issued on wireless security,4 DHS’ efforts to implement The National
                           Strategy to Secure Cyberspace, 5 and DHS’ IT management structure.6

Results in Brief
                           DHS has made signiﬁcant progress over the last year in developing, managing,
                           and implementing its information security program at the departmental level.
                           DHS’ Information Security Program Strategic Plan7 provides the foundation for
                           an agencywide, consolidated information security program. In this plan, DHS’
                           Chief Information Ofﬁcer (CIO) and Chief Information Security Ofﬁcer (CISO)
                           identify eight distinct security program areas, as shown in Figure 1. These areas
                           are essential to provide security services that protect the conﬁdentiality, integrity,
                           and availability of information, and to assign accountability for the administration
                           of DHS’ networks and computing platforms. The strategic plan also describes the
                           goals and objectives for establishing a dynamic information security organization
                           over the next ﬁve years.

                           DHS’ CIO, who has oversight responsibilities for DHS’ information security
                           program, has delegated the CISO, as required under FISMA, the authority to
                           establish information security policies and procedures throughout the department.
                           Under this authority, the CISO developed the Information Security Program
                           Management Plan,8 which is the CISO’s blueprint for managing DHS’ information
                           security program. The CISO also developed and issued an Information
                           Security Risk Management Plan,9 which documents DHS’ plan for developing,
                           implementing, and institutionalizing a risk management process in support of its
                           information security program.

                           The CISO updated the baseline IT security policies and procedures in
                           Management Directive (MD) 4300; Sensitive Systems Policy Publication 4300A
                           and its companion, the Sensitive Systems Handbook; and National Security

4
  Inadequate Security Controls Increase Risks to DHS’ Wireless Networks, OIG-04-27, June 2004.
5
  Progress and Challenges in Securing the Nation’s Cyberspace, OIG-04-29, July 2004.
6
  Improvements Needed to DHS’ Information Technology Management Structure, OIG-04-30, July 2004.
7
  Final, version 1, dated April 4, 2004.
8
  Version 1.0, dated June 15, 2004.
9
  Version 1, dated June 9, 2004.

                    Evaluation of DHS’ Information Security Program for Fiscal Year 2004                  Page 5
                                Systems Policy Publication 4300B and its companion, the National Security
                                Systems Handbook.10 Additionally, DHS issued the ISSM Guide to the DHS
                                Information Security Program (ISSM Guide),11 which outlines the speciﬁc
                                responsibilities for the components’ Information Systems Security Managers
                                (ISSM) and Information Systems Security Ofﬁcers (ISSO). The guidelines
                                provide the ISSMs with the guidance and procedures needed to align their
                                security programs with DHS’ Information Security Program. Together, these
                                policies and procedures, if fully implemented by the components, should provide
                                DHS with an effective information security program that complies with FISMA
                                requirements.

                                           Figure 1: Information Security Program Areas




                                Source: ISSM Guide

10
     The latest versions of 4300A, 4300B, and their corresponding handbooks, are dated July 26, 2004.
11
     Version 2.0, dated July 19, 2004.


Page 6                                      Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                             To manage the organizational components’ compliance with FISMA metrics and
                             the effectiveness of their component-level information security programs, the
                             CISO has developed a “digital dashboard,” which uses red, yellow, and green
                             indicators to reﬂect the status of each component’s percentage of compliance.12
                             The information used to develop the digital dashboard comes from DHS’
                             enterprise management tool, Trusted Agent FISMA. See Appendix C for the
                             digital dashboard as of September 18, 2004.

                             Even though DHS has made several improvements in its information security
                             program, the organizational components have not yet fully aligned their respective
                             security programs with DHS’ overall policies, procedures, and practices. For
                             example:

                             •    DHS cannot effectively manage its information security program while
                                  lacking an accurate and complete system inventory. DHS has begun an effort
                                  with an outside contractor to identify and establish an agencywide system
                                  inventory. With the exception of IAIP, most components have made attempts
                                  to identify their inventory of programs and systems, including those that are
                                  contractor owned or operated.
                             •    Although deﬁned a number of times, ISSMs for ﬁve of the nine components
                                  (CBP, EP&R, IAIP, S&T, and USSS) contacted us for additional clariﬁcation
                                  on the deﬁnition of programs and systems. This continued lack of
                                  understanding by those responsible for identifying required program and
                                  system information, has hindered DHS’ ability to compile a comprehensive
                                  system inventory.
                             •    As reported in our FY 2003 security program evaluation, DHS’ organizational
                                  components are not ensuring that all IT security weaknesses are included
                                  in POA&Ms. Therefore, DHS cannot effectively oversee and measure
                                  component-level FISMA metrics.
                             •    FISMA metrics data, captured within Trusted Agent FISMA, is not
                                  comprehensively veriﬁed. Until this veriﬁcation is accomplished, DHS cannot
                                  rely totally on the information reported by the organizational components in
                                  Trusted Agent FISMA, which impacts overall security program management.
                             •    Most component-level policies and procedures are in draft, such as those for
                                  C&A, and have not been formally approved or communicated to program
                                  ofﬁcials and members of the IT security organizations. For example, only

12
  These metrics include the percentage of systems and projects with adequate life cycle security requirements funding, systems accredited,
systems and applications for which an annual self-assessment has been completed, personnel (employees and contractors) with network
accounts that completed security awareness, and IT security professionals trained.


                      Evaluation of DHS’ Information Security Program for Fiscal Year 2004                                        Page 7
                                  three components (EP&R, ICE, and USCG) have updated their C&A policies
                                  to ensure their compliance with MD 4300 and National Institute of Standards
                                  and Technology (NIST) Special Publication (SP) 800-37.13

                             While DHS has issued considerable guidance, we identiﬁed areas where
                             agencywide information security procedures require strengthening:
                             (1) wireless technologies according to NIST SP 800-48; (2) protecting critical
                             infrastructures from cyber vulnerabilities and threats; (3) remote access to DHS’
                             systems; (4) vulnerability scanning; (5) penetration testing; (6) incident detection,
                             analysis, and reporting; (7) security conﬁguration polices and procedures; (8)
                             specialized security training; and (9) IT security training costs.

                             Additionally, although the DHS’ CIO is charged with implementing DHS’
                             agencywide information security program, the CIO is not a member of the
                             department’s senior management team. Therefore, the CIO does not have
                             the authority to strategically manage agencywide IT programs, systems, or
                             investments. There is no formal reporting relationship between the DHS CIO and
                             the component CIOs or between the CISO and the ISSMs. The lack of a formal
                             reporting structure between the DHS CIO and CISO with the organizational
                             components hinders agencywide support in implementing its information security
                             program.14

                             We made speciﬁc recommendations to assist DHS in the development and
                             implementation of its information systems security program in our FY 2003
                             report. While a few of these recommendations were implemented, such as the
                             certiﬁcation of Trusted Agent FISMA and the reporting of DHS’ information
                             systems security program as a material weakness, recommendations related to
                             the tracking and remediation of material weaknesses and completion of a system
                             inventory remain open. We recommend that DHS continue to consider its
                             information systems security program a signiﬁcant deﬁciency for FY 2004.

                             We obtained written comments on a draft of this report from DHS’ CIO.
                             DHS generally concurred with the report’s recommendations and has already
                             initiated several projects in the later part of FY 2004 that address some of the




13
   NIST SP 800-37, Guide for the Security Certiﬁcation and Accreditation of Federal Information Systems, dated
May 2004, provides guidelines for the C&A of information systems to help achieve more secure systems supporting executive agencies of
the federal government. Security certiﬁcation and accreditation are important activities that support a risk management process and are an
integral part of an agency’s information security program.
14
   Improvements Needed to DHS’ Information Technology Management Structure, OIG-04-30, July 2004.


Page 8                                    Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                             recommendations. These include a system inventory project that is working
                             towards a comprehensive inventory of DHS’ general support systems and
                             major applications. Similarly, a project to review and verify FISMA metrics
                             data captured within an automated system was recently initiated. These and
                             other activities will continue to be implemented in FY 2005 to improve the
                             communication between the CISO and DHS’ components, and to increase the
                             accountability of the components. See Appendix B for DHS’ comments in their
                             entirety.

Results of Independent Evaluation
                   System Inventory and IT Security Performance

                             Progress

                             •    DHS hired a contractor, who has developed a system inventory methodology.
                                  Under the methodology, a consistent approach will be used to identify an
                                  inventory of DHS’ systems across the organizational components, including
                                  contractor run systems. It will also help the department maintain an
                                  agencywide inventory of systems, major applications, networks, and interfaces
                                  that is consistent with its information systems security program. The OIG has
                                  reviewed the methodology and provided a listing of the components’ systems.
                                  The contractor began interviews with the ﬁrst of DHS’ organizational
                                  components, TSA, on September 9, 2004.
                             •    The ISSM Guide documents DHS’ policy for conducting annual
                                  self-assessments for all programs and systems according to NIST
                                  SP 800-26.15 It also adequately deﬁnes the requirements for POA&M
                                  reporting, including the ISSMs’ duties and responsibilities for developing and
                                  managing the POA&M process at the organizational component level.
                             •    DHS has adopted an enterprise management tool, Trusted Agent FISMA, to
                                  collect and track data related to all FISMA metrics, including self-assessment
                                  data. Trusted Agent FISMA also collects data on other FISMA metrics, such
                                  as the number of systems with contingency plans, system contingency plans
                                  tested, systems certiﬁed and accredited, and employees that have received

15
   NIST SP 800-26, Security Self-Assessment Guide for Information Technology Systems, dated November 2001, provides guidance
for performing systems self-assessments for 17 different control areas, such as those pertaining to identiﬁcation and authentication and
contingency planning. In addition, the guide provides control objectives and techniques that can be measured for the control areas. Self-
assessments provide a method for agency ofﬁcials to determine the current status of their information security programs, and where
necessary, establish a target for improvement.




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2004                                         Page 9
                                   IT security awareness training. DHS has mandated that the organizational
                                   components enter metrics data in Trusted Agent, and requires that the
                                   information be updated every 30 days.
                              •    DHS issued guidance, which references OMB M-04-04 and NIST
                                   SP 800-63, for conducting electronic authentication (E-authentication) risk
                                   assessments.16 Three organizational components (CBP, USCG, and USSS)
                                   have begun E-authentication risk assessments.

                              Issues to be Addressed

                              •    DHS has not yet compiled a comprehensive inventory of its programs and
                                   systems, nor identiﬁed its major applications or nationally critical systems.
                                   Without a complete and accurate inventory of its information systems, DHS
                                   cannot manage effectively its information systems security program or test
                                   and evaluate adequately the effectiveness of the information security controls
                                   over its mission critical resources.
                              •    In FY 2003, DHS hired a contractor to develop an inventory of DHS’ major
                                   applications and general information support systems from February to April
                                   2003. At that time, the CIO believed that the contractor had identiﬁed 90 to
                                   95 percent of all information systems within DHS. In FY 2004, DHS hired
                                   another contractor to identify its system inventory for FISMA purposes.
                              •    DHS’ policy and procedures do not provide organizational components with
                                   guidance on conducting reviews of their contractor or other agency-provided
                                   services. Further, there was little evidence that components are ensuring
                                   that contractor or other agency provided services are secure and comply with
                                   DHS’ security program requirements.
                              •    In an attempt to validate DHS’ self-assessment process, we selected a
                                   sample of NIST SP 800-26 evaluations completed by seven organizational
                                   components (CBP, CIS, EP&R, ICE, S&T, USCG, and USSS). We then
                                   independently scored each question and compared our results to the
                                   components’ completed questionnaires. In several instances, we noted that
                                   we scored components either higher or lower for speciﬁc questions. We


16
  E-authentication is the process of establishing conﬁdence in user identities electronically presented to an information system.
OMB-04-04, E-Authentication Guidance for Federal Agencies, provides agencies with the criteria for determining the level of E-
authentication assurance required for speciﬁc applications and transactions, based on the risks and their likelihood of occurrence for each
application and transaction. NIST SP 800-63, Electronic Authentication Guideline, dated June 2004, provides technical guidance that
supplements the OMB guidance, which deﬁnes four levels of authentication, Levels 1 to 4, in terms of the consequences of authentication
errors and the misuse of credentials.



Page 10                                   Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                                   also identiﬁed that components did not properly deﬁne security weaknesses.
                                   Additionally, ﬁve components included in our review (CIS, EP&R, ICE, S&T,
                                   and USCG) did not develop POA&Ms for all system weaknesses identiﬁed
                                   through their NIST SP 800-26 self-assessments.
                              •    With the exception of USSS, the results of self-assessments are not veriﬁed by
                                   the organizational components’ CIOs.

                              See Attachment D for speciﬁc System Inventory and IT Security Performance
                              data.

                    Signiﬁcant Deﬁciencies17

                              Progress

                              •    DHS has developed a process to capture and report signiﬁcant deﬁciencies in
                                   POA&Ms at the department level and for each organizational component.
                              •    DHS’ ISSM Guide requires the CISO to prioritize IT security weaknesses.

                              Issues to be Addressed

                              •    DHS has not implemented fully a process for identifying, managing, or
                                   verifying the accuracy of signiﬁcant deﬁciencies reported. In addition,
                                   known, signiﬁcant deﬁciencies are not being prioritized for remediation.
                              •    Two weaknesses are ﬂagged as agencywide IT material weaknesses within
                                   Trusted Agent FISMA. However, within Trusted Agent, we identiﬁed
                                   inconsistencies in reporting of material weaknesses. For example, the Ofﬁce
                                   of the CIO’s (OCIO) POA&M reports two material weaknesses, but the “FY
                                   2004 Material Weaknesses by Organizational Elements” report shows only the
                                   one signiﬁcant deﬁciency reported in the Performance Accountability Report
                                   (PAR) for FY 2003.
                              •    DHS does not have a process to ensure that all material weaknesses reported
                                   in the PAR and other sources (i.e., OIG audits, GAO audits, and NIST SP 800-
                                   26 assessments) are identiﬁed and documented in a POA&M for remediation.



17
  A signiﬁcant deﬁciency is a weakness in an agency’s overall information systems security program or management control structure, or
within one or more information systems, that signiﬁcantly restricts the capability of the agency to carry out its mission or compromises the
security of information, information systems, personnel, or other resources, operations, or assets.



                      Evaluation of DHS’ Information Security Program for Fiscal Year 2004                                         Page 11
                             •    Agencywide, material, IT security weaknesses have not been identiﬁed as
                                  signiﬁcant deﬁciencies at the respective components.
                             •    DHS’ CIO does not have sufﬁcient staff to manage, verify and/or assess the
                                  accuracy and consistency of signiﬁcant deﬁciencies, evaluate and prioritize
                                  signiﬁcant deﬁciencies for remediation, or verify that the signiﬁcant
                                  deﬁciencies are linked to the budget and remediation process. 18

                             See Appendix E for speciﬁc signiﬁcant deﬁciencies identiﬁed.

                    OIG Assessment of the Plan of Action and Milestones Process

                             Progress

                             •    DHS has developed an adequate process for reporting and capturing known
                                  security weaknesses in POA&Ms, as shown in Figure 2. DHS has also issued
                                  high-level guidance on the POA&M process.
                             •    DHS has adopted an enterprise management tool, Trusted Agent FISMA,
                                  to collect and track data related to all POA&M activities, including self-
                                  assessment data. Trusted Agent FISMA also collects data on other FISMA
                                  metrics, such as the number of system contingency plans, system contingency
                                  plans tested, systems certiﬁed and accredited, and employees that have
                                  received IT security awareness training.
                             •    A FISMA Management and Reporting Working Group, established in
                                  June 2004, meets monthly to foster a dialogue between the OCIO and the
                                  organizational components, obtain the components input on ways to improve
                                  the FISMA data collection effort, and address problems/issues that relate to
                                  the use of Trusted Agent FISMA.
                             •    ISSOs are responsible for entering all known security weaknesses identiﬁed,
                                  as well as updating the progress for mitigating each of the security
                                  weaknesses, in Trusted Agent FISMA. ISSMs are responsible for reviewing
                                  the organizational components’ POA&M data for consistency and accuracy.

                             Issues To Be Addressed

                             •    DHS cannot rely on the accuracy and completeness of the data contained
                                  in Trusted Agent FISMA. Speciﬁcally, the information entered by the


18
     Improvements Needed to DHS Information Technology Management Structure, OIG-04-30, July 2004.



Page 12                                  Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                                  organizational components is not comprehensively veriﬁed; there is no audit
                                  trail capability; and some of the ﬁelds, such as the “Scheduled Completion
                                  Date” for POA&M milestones, can be arbitrarily revised by the organizational
                                  components. In August 2004, a contractor was brought on-board to do a
                                  complete review and analysis of DHS’ POA&Ms.
                             •    Seven of nine components (EP&R, IAIP, ICE, OIG, S&T, TSA, and USCG)
                                  have not documented and implemented their POA&M process to ensure that
                                  they contain all known security weaknesses, have been reviewed for accuracy
                                  and completeness, have been prioritized, and are in compliance with all
                                  applicable DHS policies.
                             •    POA&M data in Trusted Agent FISMA is not current and is not updated
                                  periodically.
                             •    DHS’ CISO does not have the authority to oversee and ensure that the
                                  organizational components’ implementation and management of the POA&M
                                  process complies with DHS’ agencywide security program policies and
                                  procedures. Strong oversight is needed to ensure that DHS has an enterprise-
                                  wide, repeatable, and robust POA&M process for meeting FISMA’s security
                                  requirements and to ensure accurate assessments of the aggregated security
                                  postures of each organizational component.
                             •    System-level POA&Ms are not linked to individual components’ budget
                                  submissions. The CISO does not enforce the requirement that components
                                  are to prioritize security weaknesses and estimate the funding necessary to
                                  mitigate the weaknesses identiﬁed in their POA&M submissions via Trusted
                                  Agent FISMA. Only one component (EP&R) had documentation that linked
                                  its system-level POA&Ms to its budget submission.
                             •    OIG ﬁndings have not been incorporated into the POA&M process.
                             •    Only four components (CBP, ICE, USCG, and USSS) stated that their
                                  program ofﬁcials are involved in the POA&M process.
                             •    Only three components (CBP, EP&R, and USCG) capture security weaknesses
                                  from all sources, as required by OMB,19 in their POA&Ms.

                             See Appendix F for the OIG Assessment of the POA&M Process.



19
  OMB’s guidance requires agencies to capture all security weaknesses found during any review done by, for, or on behalf of the agency
in its POA&Ms, including program reviews, OIG audits, GAO audits, ﬁnancial system audits, and critical infrastructure vulnerability
assessments.



                     Evaluation of DHS’ Information Security Program for Fiscal Year 2004                                      Page 13
                                           Figure 2: DHS’ POA&M Process




          Source: ISSM Guide




Page 14                  Evaluation of DHS’ Information Security Program for Fiscal Year 2004
OIG Assessment of the Certiﬁcation and Accreditation Process

       Progress

       •    Sensitive Systems Policy Publication 4300A speciﬁes that the organizational
            components are to follow NIST SP 800-37 for all sensitive systems certiﬁed
            and accredited after May 2004. This process is documented in the ISSM
            Guide, as shown in Figure 3.
       •    In August 2004, DHS purchased a C&A tool. A decision on whether
            components will be required to use the tool will be made after a piloting
            phase. ICE is the primary component involved in the pilot effort.
       •    Four components (CBP, EP&R, ICE, and USSS) have a documented process
            for incorporating security costs into the system life cycle process.

                         Figure 3: DHS’ C&A Process




Source: ISSM Guide




 Evaluation of DHS’ Information Security Program for Fiscal Year 2004               Page 15
                             Issues to be Addressed

                             •    DHS may overstate the number of systems certiﬁed and accredited to OMB
                                  because Trusted Agent FISMA does not distinguish between systems with
                                  Interim Authority to Operate (IATO) and systems fully accredited with
                                  Authority to Operate (ATO). For example, three ICE systems listed as having
                                  ATOs in Trusted Agent FISMA, had only been granted IATOs. Systems with
                                  IATOs should not be included in an agency’s count of its systems certiﬁed and
                                  accredited.
                             •    DHS cannot identify systems that are due for recertiﬁcation and accreditation
                                  based on the information reported in Trusted Agent FISMA.
                             •    Five components (EP&R, IAIP, ICE, S&T, and USCG) reported that they did
                                  not have the ability to track the C&A status of the systems they identiﬁed in
                                  their inventory.
                             •    Components have not deﬁned impact levels for all systems in Trusted Agent
                                  FISMA according to draft Federal Information Processing Standard (FIPS)
                                  Publication (Pub) 199.20
                             •    System accreditation packages for 12 systems included in our review did
                                  not meet all applicable OMB and NIST guidelines. Speciﬁcally, our quality
                                  reviews of the accreditation packages found instances in which systems were
                                  accredited even though: (1) key security documents (such as system security
                                  plans, risk assessments, and contingency plans) prepared did not meet all the
                                  requirements outlined in applicable NIST guidance; (2) documentation did
                                  not clearly indicate what residual risks the accrediting ofﬁcial was accepting
                                  in making the accreditation decision; and (3) contingency plans had not been
                                  developed or tested.
                             •    Only three components (EP&R, ICE, and USCG) have updated their C&A
                                  policies to ensure that they are in compliance with Sensitive Systems Policy
                                  Publication 4300A and NIST SP 800-37. One component (CBP) indicated
                                  that it planned to use its existing policies to reaccredit its legacy systems
                                  instead of following NIST SP 800-37.
                             •    Five components (IAIP, OIG, S&T, TSA, and USCG) lacked a solid,
                                  documented, and implemented process to ensure IT security costs are
                                  integrated into the system life cycle process.

20
   FIPS Pub 199, Standards for Security Categorization of Federal Information and Information Systems, dated December 2003, deﬁnes the
standards all federal agencies are to use in categorizing information and information systems according to a range of risk levels impacting
the conﬁdentiality, integrity, and availability of the information or information systems.



Page 16                                   Evaluation of DHS’ Information Security Program for Fiscal Year 2004
       See Appendix G for the OIG Assessment of the C&A Process.

Agencywide Security Conﬁguration Requirements

       Progress

       •    DHS has developed agencywide security conﬁguration polices and procedures
            for Windows 2000 and Solaris.
       •    Several of the components included in our review have developed their
            own baseline security conﬁguration requirements, or incorporated some of
            the conﬁguration guidelines published by other agencies (such as NIST, the
            National Security Agency [NSA], and the Defense Information Systems
            Agency [DISA]), for at least some of their applications and operating system
            environments. For example: CBP is using NSA and DISA guidelines as a
            baseline to develop its policies; IAIP uses NSA guidelines as a baseline for its
            policies; and USCG has produced its conﬁguration policies.

       Issues To Be Addressed

       •    Because DHS agencywide security conﬁguration polices and procedures for
            Windows 2000 and Solaris were not issued until September 16, 2004, we were
            not able to evaluate the degree to which the guidelines address the patching
            of vulnerabilities or the extent to which they had been implemented. Policies
            and procedures for other applications and operating system environments have
            not yet been developed.
       •    None of the DHS components we reviewed have implemented security
            conﬁguration requirements for all of their systems.

       See Appendix H for information regarding DHS’ Agencywide Security
       Conﬁguration Requirements.




 Evaluation of DHS’ Information Security Program for Fiscal Year 2004                Page 17
                   Incident Detection and Handling Procedures

                             Progress

                             •    DHS has established and implemented agencywide policy and procedures for
                                  reporting incidents to United States Computer Emergency Readiness Team
                                  (US-CERT).21
                             •    DHS has established a vulnerability assessment program.
                             •    DHS employs various devices and technologies (such as network and host
                                  based intrusion detection devices, packet ﬁltering, and proxy ﬁrewalls) to help
                                  protect against malicious activity and to mitigate its IT security risks.

                             Issues To Be Addressed

                             •    DHS does not have reliable measures or a baseline to assess the results of its
                                  vulnerability scans or its penetration tests.
                             •    DHS’ vulnerability assessment program is not being enforced and does not
                                  have organizational component support. Therefore, DHS does not have a
                                  mechanism to collect and analyze the results of all its scans and tests.
                             •    DHS does not have documented procedures for reporting incidents externally
                                  to law enforcement authorities.

                             See Appendix I for the Incident Detection and Handling Procedures.

                   Incident Reporting and Analysis

                             Progress

                             •    DHS has established and implemented agencywide policy and procedures for
                                  reporting incidents internally.




21
  US-CERT, established in September 2003, is a public-private partnership charged with improving computer security preparedness
and response to cyber attacks in the United States. Speciﬁcally, US-CERT is responsible for analyzing and reducing cyber threats and
vulnerabilities, disseminating cyber threat warning information, and coordinating incident response activities.



Page 18                                  Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                               Issues To Be Addressed

                               •    DHS has not deﬁned a process or procedures for incident analysis.
                               •    DHS is not uniformly collecting OMB required information when incidents
                                    are reported, nor can it identify whether systems affected by an incident have
                                    been certiﬁed and accredited or whether required system patches have been
                                    installed.

                      Training

                               Progress

                               •    DHS has established policies for security awareness training and the use of
                                    peer-to-peer sharing software on DHS computers.
                               •    Additionally, ISSMs have been given the authority to develop their own
                                    information security training program, under the guidance of the Department’s
                                    Program Manager for Information Security Training, Education, and
                                    Awareness.
                               •    During FY 2004, three methods were available for ensuring employees and
                                    their contractors received annual security awareness training: CD, on-line
                                    tutorial, and classroom-based.

                               Issues To Be Addressed

                               •    DHS’ security awareness training does not explain policy on peer-to-peer ﬁle
                                    sharing.22
                               •    Identiﬁcation and management of all employees, contractors and other
                                    government personnel with access to component’s information continues to
                                    be a challenge. Many organizational components identify who needs training
                                    based on whether they have an account on DHS’ network.
                               •    DHS has not identiﬁed employees with signiﬁcant IT security responsibilities
                                    or been able to ensure that employees in those positions have received the
                                    necessary specialized security training. Only one of the components (CBP)
                                    has identiﬁed employees in those positions that need specialized training and
                                    ensured that required training was received.
                               •    Costs associated with IT security training are not being captured.

22
     This answers question G.2.a from the OMB reporting requirements for Section G, Training.


                        Evaluation of DHS’ Information Security Program for Fiscal Year 2004                Page 19
Appendix A
Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
                    The objective of this review was to determine whether DHS has developed
                    adequate and effective information security policies, procedures, and practices,
                    in compliance with FISMA. We also evaluated DHS’ progress in developing,
                    managing, and implementing its information security program.

                    Our independent evaluation focused on DHS’ information security program
                    and practices, based on the requirements outlined in FISMA, as outlined in
                    OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal
                    Information Security Management Act. We conducted our work at the program
                    level and at DHS’ major organizational components (CBP, EP&R, IAIP, ICE,
                    S&T, TSA, USCG, and USSS), including the OIG.

                    As part of our evaluation of DHS’ compliance with FISMA, we tested the
                    effectiveness of IT security controls for a subset of DHS’ information systems.
                    We also assessed DHS’ compliance with the security requirements mandated
                    by FISMA and other federal information systems security policies, procedures,
                    standards, and guidelines; including NIST SP 800-26, NIST SP 800-37, and FIPS
                    Pub 199. Speciﬁcally, we (1) used last year’s FISMA independent evaluation
                    as a baseline for this year’s review and assessed the progress that DHS has
                    made in resolving weaknesses previously identiﬁed; (2) focused on reviewing
                    DHS’ POA&M process to ensure that all security weaknesses are identiﬁed,
                    tracked, and addressed; (3) identiﬁed the policies, procedures, and practices that
                    DHS has at the program level and at the organizational component level; (4)
                    evaluated processes (i.e., C&A, security training, and incident response) DHS
                    has implemented as part of its agencywide information security program; and (5)
                    developed our independent evaluation of DHS’ information security program.

                    Though we evaluated DHS’ processes for incident reporting and analysis and
                    security training, we did not gather statistical information to complete the
                    applicable OMB tables for these areas. We determined that we would rely on the
                    data DHS collected to complete these tables.

                    OIG audit contractors were responsible for: (1) testing DHS’ compliance with
                    an abbreviated version of NIST SP 800-26 for a sample of eight systems at seven
                    organizational components (CBP, CIS, EP&R, ICE, S&T, USCG, and USSS)
                    to ensure that weaknesses, if any, are identiﬁed, captured, and tracked in the
                    POA&Ms; and (2) evaluating DHS’ major organizational components progress
                    in developing, aligning, and managing their information security program and


Page 20                      Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                                                            Appendix A
                                                            Purpose, Scope, and Methodology



      practices in compliance with DHS’ agencywide information security program.
      CIS was only included in our scope for our validation of NIST SP 800-26
      assessments.

      All audit work was conducted between April and September 2004.



      ******

      Throughout the review, we worked closely with the OCIO and personnel at the
      major organizational components. The cooperation and courtesies extended to
      the audit team and our contractors are appreciated. The principal OIG points
      of contact for the audit are Frank Deffer, Assistant Inspector General, Ofﬁce of
      Information Technology, (202) 254-4041, and Edward G. Coleman, Director,
      Information Security Audit Division, (202) 254-5444. Major OIG contributors to
      the audit are identiﬁed in Appendix J.




Evaluation of DHS’ Information Security Program for Fiscal Year 2004                   Page 21
Appendix B
Management Comments




Page 22               Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                                                                       Appendix C
                                                                       Digital Dashboard




Evaluation of DHS’ Information Security Program for Fiscal Year 2004               Page 23
  Appendix D
  System Inventory and IT Security Performance



System Inventory and IT Security Performance
By bureau (or major agency operating component), identify the total number of programs and systems in the agency
and the total number of contractor operations or facilities. The agency CIOs and OIGs shall each identify the total
number that they reviewed as part of this evaluation in FY 2004. NIST 800-26 is to be used as guidance for these
reviews.
For each part of this question, identify actual performance in FY04 for the total number of systems by bureau (or
major agency operating component) in the format provided below.
                                                                                                                      Number
                                                                                                   Number
                                                                                                                     of systems
                                                                                                  of systems                                                  Number
                                                                                                                     for which            Number
                                                           FY04               Number            with security                                                of systems
                                                                                                                      security           of systems
                    FY04                FY04             Contractor          of systems         control costs                                                for which
                                                                                                                      controls             with a
Bureau            Programs             Systems          Operations or       certiﬁed and          integrated                                                contingency
                                                                                                                     have been          contingency
Name                                                      Facilities         accredited          into the life                                               plans have
                                                                                                                     tested and             plan
                                                                                                 cycle of the                                               been tested
                                                                                                                    evaluated in
                                                                                                    system
                                                                                                                    the last year
                 Total    Number     Total    Number     Total    Number     Total   Percent     Total   Percent     Total   Percent     Total   Percent     Total   Percent
                Number   Reviewed   Number   Reviewed   Number   Reviewed   Number   of Total   Number   of Total   Number   of Total   Number   of Total   Number   of Total




   Total        45(a)      1(b)     387(a)    63(c)     13(a)       0       27(c)    43%(g)       (d)      (d)
                                                                                                                    24(e)    38%(g)      30(f)   48%(g)      13(f)   21%(g)



  Comments:

  Note: Only agencywide totals are provided.

  (a)
         Based on our June 2004 data call to ISSMs of nine major components; CIS was only included in our scope for our
         validation of NIST SP 800-26 assessments. The DHS CIO and OIG agree on the total number of systems for FY 2004.
  (b)
         Based on our ongoing ﬁnancial statement audit.
  (c)
         Based on our C&A quality review, ongoing ﬁnancial statement audit, validation of a sample of DHS’ NIST SP 800-26
         evaluations, ongoing review of classiﬁed systems, and audit of wireless networks (Inadequate Security Controls Increase
         Risks to DHS Wireless Networks, OIG-04-27, June 2004).
  (d)
         We did not collect this information during our FY 2004 audit work.
  (e)
         Based on our ongoing CFO audit, validation of a sample of DHS’ NIST SP 800-26 evaluations, and ongoing review of
         classiﬁed systems.
  (f)
         Based on our C&A quality review, ongoing ﬁnancial statement audit, validation of a sample of DHS’ NIST SP 800-26
         evaluations, and ongoing review of classiﬁed systems.
  (g)
         Percentages are based on the 63 systems the OIG reviewed, not the 387 systems reported for DHS.




  Page 24                                       Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                                                                        Appendix D
                                                                        System Inventory and IT Security Performance



System Inventory and IT Security Performance
Evaluate the degree to which the following statements reﬂect the status in your agency, by choosing from the responses
provided in the drop down menu. If appropriate or necessary, include comments in the Comment area provided below.
                               Statement                                                          Evaluation
a. Agency program ofﬁcials and the agency CIO have used
   appropriate methods to ensure that contractor provided services or
   services provided by another agency for their program and systems
                                                                                                      Yes
   are adequately secure and meet the requirements of FISMA, OMB
   policy and NIST guidelines, national security policy, and agency
   policy.
b. The reviews of programs, systems, and contractor operations or
   facilities, identiﬁed above, were conducted using the NIST self-                                   Yes
   assessment guide, 800-26.
c. In instances where the NIST self-assessment guide was not used to
   conduct reviews, the alternative methodology used addressed all                        N/A (Must use SP 800-26)
   elements of the NIST guide.
d. The agency maintains an inventory of major IT systems and this
                                                                                                      No
   inventory is updated at least annually.
e. The OIG was included in the development and veriﬁcation of the
                                                                                                      Yes
   agency’s IT system inventory.
f. The OIG and the CIO agree on the total number of programs,
                                                                                                      Yes
   systems, and contractor operations or facilities.
g. The agency CIO reviews and concurs with the major IT investment
   decisions of bureaus (or major operating components) within the                                   Yes(a)
   agency.
                                                    Statement                                                              Yes or No
h. The agency has begun to assess systems for E-authentication risk.                                                           Yes
i. The agency has appointed a senior agency information security ofﬁcer that reports directly to the CIO.                      Yes




   Comments:

   (a)
         The Investment Review Board (IRB) is in charge of reviewing IT investments. Though the CIO is a voting member
         of the IRB and is called upon as needed to provide guidance on IT investments, the CIO does not have full authority
         to approve major IT programs, systems, or investments (Improvements Needed to DHS’ Information Technology
         Management Structure, OIG-04-30, July 2004).




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2004                            Page 25
Appendix E
Identiﬁcation of Signiﬁcant Deﬁciencies



 Identiﬁcation of Signiﬁcant Deﬁciencies
 By bureau, identify all FY 2004 signiﬁcant deﬁciencies in policies, procedures, or practices required to be
 reported under existing law. Describe each on a separate row, and identify which are repeated from FY
 2003. In addition, for each signiﬁcant deﬁciency, indicate whether a POA&M has been developed. Insert
 rows as needed.
                                                           FY04 Signiﬁcant Deﬁciencies

                                          Number
                           Total                                                                      POA&M developed?
                                         Repeated      Identify and Describe Each Signiﬁcant
 Bureau Name              Number
                                        from FY03                    Deﬁciency
                                                                                                         Yes or No


                                                           •    Security Program, Program
                                                                Management Ofﬁce.

                                                           •    Security Program –
                                                                Compliance and Oversight:
 OCIO                         2              (a)
                                                                                                              Yes
                                                                POA&M tracking is not
                                                                FISMA compliant. The
                                                                POA&M management
                                                                system needs to be
                                                                completed.
 Agency Total

 Comments:

 (a)
       We were unable to determine the number of signiﬁcant deﬁciencies repeated from FY 2003 because component material
       weaknesses from FY 2003 were consolidated with FY 2004 OCIO signiﬁcant deﬁciencies.




 Page 26                               Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                                                                                     Appendix F
                                                                                     OIG Assessment of the POA&M Process


OIG Assessment of the POA&M Process
Assess whether the agency has developed, implemented, and is managing an agencywide plan of action and milestone (POA&M) process.
This question is for OIGs only. Evaluate the degree to which the following statements reﬂect the status in your agency by choosing from the
responses provided in the drop down menu. If appropriate or necessary, include comments in the Comment area provided below.
                         Statement                                                              Evaluation
                                                                                       Rarely, or 0-50% of the time
                                                                DHS’ ISSOs are to use Trusted Agent FISMA to develop, track, and
                                                                manage POA&Ms for all systems under their control. DHS’ ISSMs are
     a.        Known IT security weaknesses, from all
                                                                to conduct quarterly reviews of the consistency and accuracy of their
               components, are incorporated into the
                                                                POA&M data. Seven of the nine components reviewed lack a documented
               POA&M.
                                                                and implemented POA&M process to ensure POA&Ms contain all
                                                                weaknesses. We did not verify whether all known IT security weaknesses
                                                                were incorporated into the POA&M.
                                                                                       Rarely, or 0-50% of the time
     b.       Program ofﬁcials develop, implement,              According to DHS’ POA&M policy, program ofﬁcials are to develop,
               and manage POA&Ms for systems they               implement, and manage corrective action plans for all programs and
               own and operate (systems that support            systems that support their operations and assets. However, seven of the
               their programs) that have an IT security         nine components reviewed have either not developed, or are in the process
               weakness.                                        of developing a well-documented POA&M process for systems they own
                                                                and operate.
                                                                                       Rarely, or 0-50% of the time
                                                                According to DHS’ POA&M policy, program ofﬁcials are to develop,
                                                                implement, and manage corrective action plans for all programs and
     c.        Program ofﬁcials report to the CIO on a
                                                                systems that support their operations and assets. ISSMs are to ensure that
               regular basis (at least quarterly) on their
                                                                Trusted Agent FISMA is used to manage the remediation of IT program
               remediation progress.
                                                                and system weaknesses within their organizational components. The CIO
                                                                does not receive reports of remediation progress. The CIO does not ensure
                                                                that components update the status of their remediation progress.
     d.        CIO develops, implements, and manages
                                                                                       Rarely, or 0-50% of the time
               POA&Ms for every system they own and
                                                                DHS’ CIO has not developed or implemented POA&Ms for every
               operate (a system that supports their
                                                                system owned and operated. The CIO has not compiled a comprehensive
               program or programs) that has an IT
                                                                inventory of all systems.
               security weakness.
     e.        CIO centrally tracks, maintains, and                                  Rarely, or 0-50% of the time
               reviews all POA&M activities on at least a       While the CIO maintains the quarterly POA&Ms, DHS does not verify the
               quarterly basis.                                 accuracy or completeness of the report.
                                                                                       Rarely, or 0-50% of the time
     f.        The POA&M is the authoritative agency            The POA&M is DHS’ authoritative tool to identify and monitor the status
               and IG management tool to identify and           of IT security weaknesses. We do not use POA&Ms as our authoritative
               monitor agency actions for correcting            management tool. We also conduct vulnerability analyses to identify
               information and IT security weaknesses.          weaknesses and perform follow-up audits to monitor the status of
                                                                corrective actions.
                                                                                       Rarely, or 0-50% of the time
     g.        System-level POA&Ms are tied directly to         At the component level, linkage of security costs to the budget was
               the system budget request through the IT         minimal. There are different opinions and approaches by the components
               business case as required in OMB budget          on how to report resources and costs in POA&Ms. Approaches ranged
               guidance (Circular A-11).                        from no reporting, to only reporting what could not be covered in existing
                                                                program funds.
     h.        OIG has access to POA&Ms as requested.                            Almost always, or 96-100% of the time
     i.        OIG ﬁndings are incorporated into the                                   Rarely, or 0-50% of the time
               POA&M process.                                   OIG ﬁndings are not incorporated into the POA&M process.
     j.        POA&M process prioritizes IT security
               weaknesses to help ensure that signiﬁcant                             Rarely, or 0-50% of the time
               IT security weaknesses are addressed in          Most of the components do not have a formal process to prioritize their IT
               a timely manner and receive appropriate          security weaknesses.
               resources.
                     Evaluation of DHS’ Information Security Program for Fiscal Year 2004                                              Page 27
Appendix G
OIG Assessment of the C&A Process



 OIG Assessment of the Certiﬁcation and Accreditation Process
 Assess the agency’s certiﬁcation and accreditation process in order to provide a qualitative assessment
 of this critical activity. This assessment should consider the quality of the Agency’s certiﬁcation
 and accreditation process. Any new certiﬁcation and accreditation work initiated after completion
 of NIST SP 800-37 should be consistent with NIST SP 800-37. This includes use of the FIPS 199,
 “Standards for Security Categorization of Federal Information and Information Systems,” to
 determine an impact level, as well as associated NIST documents used as guidance for completing
 risk assessments and security plans. Earlier NIST guidance is applicable to any certiﬁcation and
 accreditation work completed or initiated before ﬁnalization of NIST SP 800-37. Agencies were not
 expected to use NIST SP 800-37 as guidance before it became ﬁnal.
               Statement                                                 Evaluation
 Assess the overall quality of the
                                                                             Poor
 Agency’s certiﬁcation and accreditation
 process.
                                               We determined that 11 of the 12 systems evaluated were
                                               certiﬁed and accredited using a number of different
 Comments:
                                               processes: National Information Assurance Certiﬁcation
 Although OMB encouraged the early
                                               and Accreditation Process, Department of Defense
 implementation of draft NIST SP
                                               Information Technology Security Certiﬁcation and
 800-37 by issuing interim certiﬁcation
                                               Accreditation Process, Presidential Decision Directive
 and accreditation guidance to federal
                                               63, Treasury Directive P 71-10. Speciﬁcally, we noted
 agencies in July 2003, DHS did not
                                               instances in which key security documents prepared did
 require its organizational components to
                                               not meet all OMB and NIST requirements, such as:
 follow the NIST SP 800-37 process until
 the publication was ﬁnalized in May
                                                   •   Up-to-date and approved system security plan.
 2004. Because of DHS’ late adoption of
                                                   •   Current risk assessment.
 NIST SP 800-37, we could not evaluate
                                                   •   Contingency plan.
 new certiﬁcation and accreditation work
 initiated after May 2004. However,
                                               Until DHS has a complete inventory of its systems,
 we selected 12 certiﬁed and accredited
                                               they will be unable to determine whether all of its
 systems at four components, and
                                               systems have been certiﬁed and accredited. A complete
 evaluated three key security documents
                                               inventory of major information systems is a key element
 that are part of the accreditation
                                               of FISMA and is needed to effectively manage DHS’ IT
 packages for compliance with applicable
                                               resources and its information security program.
 OMB and NIST guidance.




Page 28                         Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                                                               Appendix H
                                                               Agencywide Security Conﬁguration Requirements



Policies and Security Conﬁgurations
First, answer D.1. If the answer is yes, then proceed. If no, then skip to Section E. For D.1.a-f, identify whether agencywide
security conﬁguration requirements address each listed application or operating system (Yes, No, or Not Applicable), and then
evaluate the degree to which these conﬁgurations are implemented on applicable systems. For example: If your agency has a
total of 200 systems, and 100 of those systems are running Windows 2000, the universe for evaluation of degree would be 100
systems. If 61 of those 100 systems follow conﬁguration requirement policies, and the conﬁguration controls are implemented, the
answer would reﬂect “yes” and “51-70%”. If appropriate or necessary, include comments in the Comment area provided below.
Answer Yes or No, and then evaluate the degree to which the conﬁguration requirements address the patching of security
vulnerabilities. If appropriate or necessary, include comments in the Comment area provided below.
Has the CIO implemented agencywide policies that require detailed
                                                                   Yes, No, or
speciﬁc security conﬁgurations and what is the degree by which the                                 Evaluation
                                                                      N/A
conﬁgurations are implemented?
a.   Windows XP Professional                                           No        Due to the use of legacy systems at DHS’
b.   Windows NT                                                        No        components and the disparity between the
                                                                                 components’ operating environments, it would
c.   Windows 2000 Professional                                         No
                                                                                 not be feasible to implement the guidelines
d.   Windows 2000                                                      Yes       throughout the department. Nonetheless, DHS
e.   Windows 2000 Server                                               No        is working with its components to develop
f.   Windows 2003 Server                                               No        minimum agencywide security conﬁguration
g.   Solaris                                                           Yes       polices and procedures. Once completed, DHS
h.   HP-UX                                                             No        will rely on its components to develop more
i.   Linux                                                             No        speciﬁc guidelines applicable to their operating
j.   Cisco Router IOS                                                  No        respective environments.
k.   Oracle                                                            No
                                                                             DHS issued security conﬁguration guides for
                                                                             Windows 2000 and Solaris (dated September
l. Other (specify):                                                   No     16, 2004); however, due to our FISMA deadline,
                                                                             we did not have time to review the guidelines.
                                                                   Yes or No                   Evaluation
                                                                                 Patch management is the responsibility of the
                                                                                 components. However, the DHS Computer
Do the conﬁguration requirements implemented above,                              Security Incident Response Center (CSIRC)
address patching of security vulnerabilities?                                    has implemented the Information Security
                                                                      N/A
                                                                                 Vulnerability Message, which is a technical
                                                                                 advisory bulletin, sent to each component’s
                                                                                 CSIRC, that provides them with the latest
                                                                                 information related to updates and patches.




                    Evaluation of DHS’ Information Security Program for Fiscal Year 2004                                 Page 29
Appendix I
Incident Detection and Handling Procredures



Incident Detection and Handling Procedures
Evaluate the degree to which the following statements reﬂect the status at your agency. If appropriate or
necessary, include comments in the Comment area provided below.
Statement                                                                        Evaluation

a. The agency follows documented policies and procedures for
                                                                                                      Yes
   reporting incidents internally.

b. The agency follows documented policies and procedures for
                                                                                                       No
   external reporting to law enforcement authorities.
c. The agency follows deﬁned procedures for reporting to
   the United States Computer Emergency Readiness Team                                                Yes
   (US-CERT). http://www.us-cert.gov
Incident Detection Capabilities.
                                                                                                        Percentage of Total
                                                                             Number of Systems
                                                                                                             Systems
a. How many systems underwent vulnerability scans and
                                                                                    5202(a)                     (b)
   penetration tests in FY 2004?
b. Speciﬁcally, what tools, techniques, technologies, etc., does the agency use to mitigate IT security risk?
Answer: DHS employs various devices and technologies (such as network and host based intrusion detection devices, packet
ﬁltering, and proxy ﬁrewalls) to help protect against malicious activity and to mitigate its IT security risks.
Comments:

(a)
      We obtained this number from DHS. For this question only, DHS deﬁnes systems as unique internet protocol addresses.
      Therefore, the number reported in the table is not the total number of systems that underwent vulnerability scans and
      penetration tests in FY 2004. The number represents only a fraction of systems’ vulnerability scans and penetration
      tests performed. DHS could not determine the total number of systems, or determine the percentage that underwent
      vulnerability scans or penetration tests conducted in FY 2004, because some of the organizational components are
      not reporting the results of their scans and tests to DHS’ Computer Security Incident Response Center or to Security
      Operations.

(b)
      We did not obtain this information. Refer to DHS’ FY 2004 FISMA report for this number.




Page 30                               Evaluation of DHS’ Information Security Program for Fiscal Year 2004
                                                                 Appendix J
                                                                 Major Contributors to this Report




      Ofﬁce of Information Technology
      Information Security Audit Division

      Edward G. Coleman, Director
      Barbara Bartuska, Audit Manager
      Jeff Arman, Audit Manager
      Patrick Nadon, Audit Manager
      Chelsea Pickens, Senior IT Auditor
      Tom Tsang, Senior IT Auditor
      Benita Holliman, IT Auditor
      Pedro Calderon, IT Auditor
      William Matthews, IT Auditor
      Chris Udoji, IT Auditor
      Jason Bakelar, IT Auditor
      Michelle Bellamy, IT Auditor
      Scott Binder, IT Auditor
      Werner Roberts, IT Auditor
      Evan Portelos, Associate
      Meghan Sanborn, Referencer




Evaluation of DHS’ Information Security Program for Fiscal Year 2004                      Page 31
Appendix K
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      General Counsel
                      DHS OIG Liaison
                      DHS Chief Financial Ofﬁcer
                      DHS CISO
                      DHS Public Affairs
                      CIO Audit Liaison

                      Ofﬁce of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Appropriate Congressional Oversight and Appropriations Committees




Page 32                       Evaluation of DHS’ Information Security Program for Fiscal Year 2004
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.
dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
